March 12, 2003

CHARLES E. BRAVO
SENIOR VICE PRESIDENT, INTELLIGENT MAIL AND ADDRESS QUALITY

HENRY A. PANKEY
VICE PRESIDENT, DELIVERY AND RETAIL

SUBJECT: Audit Report - Address Change Service
         (Report Number TD-AR-03-004)

This report presents the results of our self-initiated audit of Address Change Service
(Project Number 01NA001DE000). The audit objective was to determine if the Postal
Service was managing the Address Change Service in an efficient and cost-effective
manner.

Our audit disclosed that the Postal Service processed approximately 300 million
pieces of Address Change Service mail from September 2000 to July 2002. Although
80 percent of that volume was properly processed, we estimated that 20 percent was
mishandled which resulted in unnecessary processing costs of over $20 million. This
occurred because of outdated policies and guidelines, lack of training, and no
centralized customer satisfaction measurement. The audit also disclosed that the
Postal Service could save an estimated $14 million over the next 2 years by eliminating
unnecessary manual Address Change Service mail handling. We recommended
management develop necessary training materials, ensure managers analyze Address
Change Service performance data and provide feedback to local post offices; and
update Handbook PO-602, Computerized Forwarding System Management Guidelines,
to contain guidance on Address Change Service procedures. We also recommended
management update Publication 8, Address Change Service, to provide guidance
concerning keyline procedures; and establish a dedicated customer concern unit to act
upon Address Change Service mailer concerns.

Management agreed with all of the recommendations. The actions management has
taken or planned should correct the issues identified in the report. Management
disagreed with certain aspects of our report. We addressed all disagreements, in detail,
in our evaluation of management’s comments. Management’s comments and our
evaluation of these comments are included in this report.
The Office of Inspector General (OIG) considers recommendations 1 through
5 significant and, therefore, requires OIG concurrence before closure. Consequently,
the OIG requests written confirmation when corrective actions are completed. These
recommendations should not be closed in the follow-up tracking system until the OIG
provides written confirmation that the recommendations can be closed.

We appreciate the cooperation and courtesies provided by your staff during the audit.
If you have any questions, or need additional information please contact Joe Oliva,
director, Transportation and Delivery, at 703-248-2100, or me at (703) 248-2300.



B. Wayne Goleski
Assistant Inspector General
 for Core Operations

Attachment

cc: Richard J. Strasser, Jr.
    Patrick R. Donahoe
    John A. Rapp
    Frederick J. Hintenach
    Karen E. Schenck
    Jim Wilson
    Janice E. Caldwell
    Susan M. Duchek
Address Change Service                                                         TD-AR-03-004




                                   INTRODUCTION
Background                 Postal Service customers, who request Address Change
                           Service, receive notification when items they mail cannot be
                           delivered. The notification allows mailers to update their
                           mailing lists.




             ADDRESS
          CHANGE SERVICE
             REQUEST
           ENDORSEMENT




                           Mail that cannot be delivered generally falls into
                           two categories, items that can be forwarded to a new
                           address, or items for which no forwarding address is known.
                           When Address Change Service mail is forwarded,
                           participating mailers are notified electronically. When
                           Address Change Service mail cannot be forwarded, mailers
                           are notified either electronically or manually. Manual
                           notification consists of returning mail to the sender.
                           Manually returning mail to the sender is significantly more
                           costly than electronic notification.

                           In 1985, the Postal Service established electronic Address
                           Change Service. The Postal Service also established
                           220 computerized forwarding system units nationwide to
                           process address change notifications. When a local post
                           office identifies Address Change Service mail that is not
                           deliverable as addressed, the post office directs that mail to
                           a computerized unit. The unit then transmits the information
                           to the National Customer Support Center (center), the center
                           notifies the mailer electronically, and the mail is processed
                           as appropriate.




                                               1
                                    Restricted Information
Address Change Service                                                        TD-AR-03-004




Objective, Scope,        The objective of our audit was to determine if the Postal
and Methodology          Service was managing the Address Change Service in an
                         efficient and cost-effective manner.

                         To accomplish our objective, we interviewed Postal Service
                         officials at headquarters and in the field and analyzed
                         Address Change Service data for all 220 Computerized
                         Forwarding System units. In addition, we conducted a
                         statistical sampling from over 30,000 mailpiece manual
                         returns for a participating mailer of the service. The
                         stratified sample of over 13,000 mailpieces allowed
                         statistical projection of the number of mailpieces returned for
                         specific causes. The mailpieces were mailed between
                         September 3 and September 29, 2001, and were returned
                         between September 9 and October 5, 2001. None of the
                         mailpieces should have been returned and therefore
                         provided evidence of mishandling in some way in the mail
                         forwarding process.

                         Because of the extremely large sample examined and the
                         uniformity of the reasons for mishandling, the projections
                         reported are within a very tight confidence interval (less than
                         +/- 1 percent at the 99 percent confidence level). Based on
                         the results of the sample, we then visited five Computerized
                         Forwarding System units and 13 post offices to analyze the
                         processing of Address Change Service mailpieces.

                         Our audit was conducted from June 2001 through
                         March 2003 in accordance with generally accepted
                         government auditing standards and included such tests of
                         internal controls as were considered necessary under the
                         circumstances. We discussed our conclusions and
                         observations with appropriate management officials, and
                         included their comments, where appropriate.

Prior Audit Coverage     We did not identify any prior audits or reviews related to the
                         objectives of this audit.




                                             2
                                  Restricted Information
Address Change Service                                                                          TD-AR-03-004



                                         AUDIT RESULTS
Manual Return               Our audit revealed that from September 2000 to July 2002, the
to Sender Mail              Postal Service unnecessarily spent over $20 million by
                            manually handling Address Change Service mail, instead of
                            notifying mailers electronically. Our audit also revealed that
                            the Postal Service could save $14 million over the next 2 years
                            by eliminating unnecessary manual Address Change Service
                            mail handling. Postal Service procedures require that when
                            Address Change Service mail cannot be delivered as
                            addressed, mailers are to be notified electronically. However,
                            Postal Service records revealed that 20 percent of
                            undeliverable Address Change Service mail was unnecessarily
                            manually returned to the sender. Consequently, the Postal
                            Service incurred substantial unnecessary cost as detailed in
                            the chart below:

                                              ADDRESS CHANGE SERVICE COSTS


                                                              ESTIMATED VOLUME
                                                             MAIL UNNECESSARILY
                                      TOTAL VOLUME           RETURNED TO SENDER
                                      UNDELIVERABLE           WHEN ELECTRONIC
                                     MAIL WHICH COULD         NOTIFICATION WAS            UNNECESSARY
                        FISCAL            NOT BE                APPROPRIATE                   COST
                                                  1                            2
                         YEAR          FORWARDED            (TOTAL VOLUME x 20% )        (VOLUME x $.363)

                         2000            86,596,086                 17,319,217                $6,234,918
                         2001           111,709,191                 22,341,838                 8,043,062
                         2002*           90,677,378                 18,135,476                 6,528,771

                        TOTAL       288,982,655            57,796,531                        $20,806,751
                          ∗ Fiscal year 2002 is through accounting period 11


                                 The estimated savings were calculated as shown below.

                                 •   Number of accounting periods analyzed = 37
                                 •   Unnecessary cost - accounting period
                                     average = $562,345 ($20,806,751 divided by 37)
                                 •   Estimated savings over 2 years (26 accounting periods)
                                     = $14,620,960 ($562,345 x 26)

1
  Postal Service reported volume as part of the Computerized Forwarding Systems performance data.
2
  The memorandum, Address Change Service Nixie Mail Processing, June 2001, noted that 20 percent of Address
Change Service nixie notifications are returned improperly as manual notification.
3
  Postal Rate Commission Report, USPS-LR-J-69, 2001 included cost figures for manually and electronically
processing Address Change Service mail. The additional cost to the Postal Service to manually process and
physically return a mailpiece to the sender is $.36.



                                                      3
                                           Restricted Information
Address Change Service                                                      TD-AR-03-004




Reasons for Manual       To evaluate why Address Change Service mail was
Return                   unnecessarily returned to sender, we analyzed more
                         than 13,000 pieces of mail from a population of over
                         30,000 pieces returned to one mailer during the 6-day
                         period from September 29 to October 5, 2001. Our
                         statistical analysis projected:

                            •   About 96 percent of the returned mail was
                                mishandled because local post offices returned it to
                                the sender rather than directing it to a Computerized
                                Forwarding System unit for processing.

                            •   About 2 percent was mishandled because
                                Computerized Forwarding System unit data entry
                                personnel did not properly enter electronic data, and
                                as a result, the item was manually returned.

Local Post Offices       Address Change Service mail processing at local post
                         offices could be improved if Postal Service managers
                         analyzed and provided feedback on Address Change
                         Service performance data. For example, Postal Service
                         Form 3925, Daily Address Information Operation Analysis,
                         documents daily operations and identifies indicators of
                         mishandled mail by specific local post offices. The daily
                         data is then compiled and used as part of national
                         performance indicators. However, our audit revealed that
                         Postal Service managers did not use this information to
                         provide feedback to local units.

                         Address Change Service mail processing at local post
                         offices could also be improved if local managers supervised
                         and trained employees more effectively. For example, our
                         site visits to 13 post offices, and our interviews with
                         employees, revealed that:

                            •   None of the post offices had employees view a
                                Postal Service training video on Address Change
                                Service mail.

                            •   Only two post offices reported that they had
                                conducted Address Change Service training other
                                than the video.




                                             4
                                  Restricted Information
Address Change Service                                                                TD-AR-03-004



                            •   Only two post offices received Address Change
                                Service guidance.

                            •   No employees had received Address Change
                                Service guidance from their supervisors.




                              Delivery clerk in a local post office preparing to send Address
                             Change Service mail to a Computerized Forwarding System unit.


Computerized             Address Change Service mail processing at Computerized
Forwarding Systems       Forwarding System units could be improved if Postal
Units                    Service management updated Address Change Service
                         mail processing policies and procedures. For example:

                         Postal Service Handbook PO-602, Computerized
                         Forwarding System Management Guidelines, dated
                         November 1986, contains procedures for managing
                         Computerized Forwarding System units, but does not
                         provide any guidance on Address Change Service.
                         Consequently, individual units have developed their own
                         procedures and suffer from lack of standardization,
                         conflicting terminology, and inadequate quality control.

                         Postal Service Publication 8, Address Change Service,
                         dated September 1998, contains technical information and
                         instructions for Address Change Service mailers. However,
                         it does not contain current or updated instructions on
                         “keylines.”




                                              5
                                   Restricted Information
Address Change Service                                                           TD-AR-03-004




                         KEYLINE




                          Keylines are required for electronic notification because they
                          are used by data entry clerks at Computerized Forwarding
                          System units to “key-in” electronic notification information.
                          A Postal Service memorandum to Address Change Service
                          mailers, dated December 2000, encouraged mailers to
                          separate keylines between each four numbers in the line to
                          improve the speed and accuracy of production keying efforts.
                          However, Publication 8 does not require that procedure.
                          Consequently, our analysis of the 13,000 pieces of mail,
                          returned over the 6-day period from September 29, 2001,
                          through October 5, 2001, revealed that 104 of the
                          Computerized Forwarding System units manually
                          returned mail because of keying errors.

Customer Service          Our audit also revealed Postal Service management could
                          improve Address Change Service customer satisfaction by
                          establishing a dedicated centralized customer service unit to
                          collect and act upon mailer concerns. Various Postal
                          Service memoranda we reviewed indicated that mailers:

                             •     Felt the quality of their address files were negatively
                                   impacted by manual returns.

                             •     Wanted refunds when manual returns occurred.

                             •     Thought the overall system did not work well.




                                                6
                                     Restricted Information
Address Change Service                                                      TD-AR-03-004



                         Since the Postal Service has no dedicated Address Change
                         Service customer concern activity, the Postal Service limits
                         its opportunities to improve mailer satisfaction and to
                         address customer concerns.

Recommendation           We recommend the vice president, Delivery and Retail:

                         1. Require all delivery unit personnel to view the Postal
                            Service training video on Address Change Service mail
                            and develop necessary training materials for supervisors
                            and employees to ensure that Address Change Service
                            mail is properly handled.

Management's             Management agreed with our recommendation. They stated
Comments                 they would produce and reissue a new video as a more
                         effective training vehicle for everyone involved in the
                         Address Change Service process. They explained the new
                         video would make everyone involved in the process more
                         aware of how to recognize Address Change Service
                         mail and of proper handling procedures. They also
                         stated the new video was scheduled for completion by
                         September 2003, and would be distributed to the field
                         shortly thereafter. Management’s comments, in their
                         entirety, are included in the appendix of this report.

Evaluation of            Management’s comments were responsive to our
Management's             recommendation. We believe management’s plan to
Comments                 develop and issue a new video will improve the training and
                         effectiveness of delivery unit personnel who process
                         Address Change Service mail. Management comments, in
                         their entirety, are included in the appendix to this report.
                         Management’s actions taken or planned should correct the
                         issues identified in the report.

Recommendation            2. Ensure that Postal Service managers at all levels
                             routinely analyze available Address Change Service
                             performance data like the data compiled on Postal
                             Service Form 3925, Daily Address Information
                             Operation Analysis, and use that information to provide
                             feedback to local post offices on Address Change
                             Service performance.




                                             7
                                  Restricted Information
Address Change Service                                                      TD-AR-03-004




Management's             Management agreed with our recommendation. They stated
Comments                 that they had established a small working group to
                         determine the best way to monitor, provide feedback, and
                         improve performance. Management also stated that they
                         expected working group recommendations to be completed
                         not later than June 2003.

                         Management also provided detailed remarks concerning the
                         deficiencies of Postal Service Form 3925 as a tool for
                         providing information on delivery units. Management took
                         exception to our mention of the form as an example of many
                         data sources available to analyze performance and provide
                         feedback. They stated Postal Service Form 3925 does not
                         document daily operations, does not identify indicators of
                         mishandled mail at local post offices, and does not provide
                         indications that mail has been mishandled.

Evaluation of            We were advised that Postal Service Form 3925 is intended
Management's             to document daily operations, identify indicators of
Comments                 mishandled mail, and provide a basis for feedback. During
                         our audit we discussed Postal Service Form 3925 with
                         Postal Service officials responsible for the Computerized
                         Forwarding System. Those officials explained that Postal
                         Service Form 3925 provided important data on Address
                         Change Service mail handling at delivery units. For
                         example, they gave us substantial data compiled from the
                         forms and explained the data indicated potential failure of
                         delivery units to identify properly and direct Address Change
                         Service mail.

                         Our intent was not to focus on the form, but to recommend
                         that Postal Service management use data from various
                         sources, including the form, to routinely analyze Address
                         Change Service mail—and then take whatever action might
                         be indicated to improve performance. Consequently we
                         believe management’s promise to determine, by June 2003,
                         the best way to monitor Address Change Service mail
                         handling, provide feedback, and improve performance, is
                         responsive and should correct the issues identified in the
                         report.




                                             8
                                  Restricted Information
Address Change Service                                                       TD-AR-03-004




Recommendation           We recommend the vice president, Delivery and Retail:

                         3. Update Postal Service Handbook PO-602,
                            Computerized Forwarding System Management
                            Guidelines, dated November 1986, to contain guidance
                            on Address Change Service procedures, including
                            provisions to require local Postal Service managers to
                            track performance data and properly train and supervise
                            personnel.

Management's             Management agreed with our recommendation but
Comments                 disagreed that Handbook PO-602, dated November 1986,
                         lacked Address Change Service guidance. They explained
                         the handbook was updated in November 2002.

                         However, management acknowledged the update was
                         not yet approved or distributed, and that in any case, did not
                         include the provisions we recommended. Management
                         stated that the effort to develop better guidelines to track
                         and monitor Address Change Service mail was part of
                         their working group effort, and that they expected the
                         guidelines to be distributed and implemented in late 2003 or
                         early 2004.

Evaluation of            We believe management’s promise to develop guidelines to
Management's             better track and monitor Address Change Service mail, and
Comments                 to distribute and implement those guidelines by late 2003 or
                         early 2004, is responsive and should correct the issues
                         identified in the report.

Recommendation           We recommend the senior vice president, Intelligent Mail
                         and Address Quality

                         4. Update Postal Service Publication 8, Address Change
                            Service, dated September 1998, to contain guidance
                            concerning keyline procedures.

Management's             Management disagreed that Publication 8 required
Comments                 updated keyline instructions. However, management
                         explained that the National Customer Service Center was
                         currently updating Publication 8, and that the keyline




                                             9
                                  Restricted Information
Address Change Service                                                      TD-AR-03-004




                         spacing issue we identified would be included when the
                         update was distributed. Management also stated that they
                         needed more specific information to incorporate properly our
                         recommendation.

Evaluation of            During our audit, we examined Publication 8. We also
Management's             examined a Postal Service memorandum, dated
Comments                 December 2000, that encouraged mailers to follow an
                         additional suggested procedure intended to improve the
                         speed and accuracy of production keying. The
                         memorandum explained that the suggestion significantly
                         reduced keying errors, indicated the suggestion was not yet
                         a requirement, and stated the Postal Service intended to
                         make it a requirement. Nonetheless, officials at the National
                         Customer Support Center explained the December 2000
                         memorandum did not formally update Publication 8 and only
                         encouraged the suggested procedures. We believe the
                         keying suggestion encouraged by the December 2000
                         memorandum should be a formal requirement because it will
                         reduce keying errors, increase system efficiency, increase
                         customer satisfaction, and save money. Consequently, we
                         recommended that Publication 8 be updated. In their
                         response, Postal Service management acknowledged that
                         Publication 8 had not yet been updated, but stated that the
                         keyline issue we identified was already included in the
                         anticipated update. This update, when published, should
                         correct the issues identified in the report.

Recommendation           We recommend the vice president, Delivery and Retail:

                          5. Establish a dedicated Address Change Service
                             customer concern unit to collect, analyze, and act upon
                             Address Change Service mailer concerns.

Management's             Management disagreed that the Postal Service could
Comments                 improve Address Change Service customer satisfaction by
                         establishing a dedicated centralized customer service unit to
                         collect and act upon customer concerns. They explained
                         that there was already an Address Change Service unit at
                         the National Customer Support Center to handle customer
                         issues. Management stated that they were currently
                         enhancing the customer service unit so it would collect
                         information, research concerns, and contact individual
                         mailers to resolve problems. Management stated that the



                                            10
                                  Restricted Information
Address Change Service                                                      TD-AR-03-004



                         enhanced unit was projected for implementation on
                         February 28, 2003.

Evaluation of            During our audit, we identified the National Customer
Management's             Support Center Address Change Service unit which
Comments                 management said already handled customer concerns.
                         Officials at the center told us that the unit was responsible
                         for program management but that the customer concern
                         function was limited. They explained the existing group did
                         not track, collect, categorize, or analyze customer issues.
                         We concur that the existing unit needs enhancement.
                         Consequently, we believe management’s promise to
                         enhance the unit with capacity to collect information,
                         research concerns, and work with mailers should correct the
                         issues identified in the report.




                                            11
                                  Restricted Information
Address Change Service                                                            TD-AR-03-004




Additional               Management alleged that some individual statements
Management               contained in the introduction of our draft report were
Comments                 inaccurate. We will address management’s allegations
                         individually.

Management’s             Management quoted our draft report as follows:
Comment
                            “When Address Change Service mail is forwarded,
                            participating mailers are notified electronically . . . and
                            manual notification consists of returning mail to sender.”

                         Management alleged that the statement was inaccurate
                         because it implied there should be no manual address
                         corrections. They explained that in some cases manual
                         corrections were appropriate and provided examples.

Evaluation of            Management thought the statement they quoted was
Management’s             inaccurate because they misquoted the statement. The full
Comments                 text of the extract to which management referred is properly
                         quoted as follows:

                            “When Address Change Service mail is forwarded,
                            participating mailers are notified electronically. When
                            Address Change Service mail cannot be forwarded, mailers
                            are notified either electronically or manually. Manual
                            notification consists of returning mail to sender.”

                         The correct quote clearly acknowledges circumstances
                         when manual notification is appropriate. It was not our
                         intent to suggest otherwise—and we did not imply there
                         should be no manual address correction.

Management’s             Management took exception to the introductory background
Comment                  paragraph in our draft report which summarized the flow of
                         an electronic customer notification. Our background
                         paragraph stated:

                            “When a local post office identifies Address Change
                            Service mail that is not deliverable as addressed, the post
                            office directs that mail to a computerized unit. The unit
                            then notifies the mailer electronically and forwards the mail
                            as appropriate—or alternatively, notifies the mailer that the
                            item is undeliverable.”

                         Management pointed out that the computerized unit did not
                         notify the mailer directly, but forwarded the information to



                                            12
                                  Restricted Information
Address Change Service                                                           TD-AR-03-004



                         the National Customer Support Center, which in turn,
                         processed the information and notified the mailer.

Evaluation of            Our introductory background paragraph was intended to
Management’s             provide readers unfamiliar with Address Change Service,
Comments                 with a broad general framework to consider differences
                         between electronic and manual notification. Typically, in
                         summarized documents, levels of detail are necessarily
                         omitted. We believe the summary to which management
                         objected to was sufficient for its intended purpose of
                         providing readers with a broad general description of
                         Address Change Service mail. We also believe the omitted
                         detail had no impact on our work or conclusions.
                         Nonetheless, we will modify our report to read as follows:

                            “When a local post office identifies Address Change
                            Service mail that is not deliverable as addressed, the post
                            office directs that mail to a computerized unit. The unit
                            then transmits the information to the National Customer
                            Support Center, the center notifies the mailer
                            electronically, and the mail is processed as appropriate.”

Management’s             Management described our statistical sample of Address
Comments                 Change Service mail, as a sample of mail that was “returned
                         manually to participating mailers.” Management alleged that
                         the description was inaccurate. They stated that the mail
                         “was not manually returned mailpieces from participating
                         ACS mailers,” but rather, manually returned mail from a
                         National Customer Support Center mailing.

                         Notwithstanding their “disagreement” concerning the source
                         of the mailing, management acknowledged:

                            •   The mail was in fact, Address Change Service mail.

                            •   Since the mail was Postal Service generated, it
                                should have had a high level of accuracy.

                            •   The mail should not have been manually returned.

Evaluation of            Management thought their description of our sample was
Management’s             inaccurate because they did not properly describe what we
Comments                 said. We did not state, suggest, or imply our sample was
                         taken from multiple participating mailers. Properly quoted,
                         our draft audit report read as follows:



                                            13
                                  Restricted Information
Address Change Service                                                           TD-AR-03-004



                            “. . . we conducted a statically sampling from over
                            30,000 mailpiece manual returns for a participating mailer
                            of the service.”

                         Our report referred to a single mailer, not multiple
                         “participating mailers” as incorrectly suggested in
                         management’s response. The single mailer to which we
                         referred was the National Customer Support Center. During
                         the early stages of our audit, Postal Service officials from
                         the center explained that they had principal responsibility for
                         the Address Change Service program, and that interestingly,
                         they were one of their own mailers. Based on problems
                         center officials identified during an internal survey of
                         Address Change Service mail, the officials proposed we
                         conduct a statistical sample. However, the officials
                         suggested we limit our sample to a mailing they would
                         generate, and assured us that the sample would provide a
                         valid reflection of all Address Change Service mail. Then, in
                         conjunction with our statisticians, and in accordance with
                         valid statistical sampling techniques, center officials helped
                         us design the sample. Finally, in support of the sample they
                         helped to design center officials:

                            •   Mailed more than 2.7 million pieces of mail.

                            •   Collected and sorted by reason code, more than
                                30,000 pieces of manually returned mail.

                            •   Identified, by reason code, why mail had been
                                returned.

                         The audit team subsequently analyzed sample results and
                         discussed conclusions with appropriate National Customer
                         Support Center officials. Those officials concurred with our
                         methodology, execution, analysis, and conclusions.
                         Consequently we are puzzled why Postal Service
                         Headquarters officials would object.

Management’s             Management suggested that the “inaccuracies” they alleged
Comments                 in our draft report brought into question the accuracy of our
                         monetary findings. However, management did not provide
                         any information to explain or elaborate on how the alleged
                         “inaccuracies” might have impacted those findings, and
                         management did not challenge the magnitude of the
                         findings.



                                            14
                                  Restricted Information
Address Change Service                                                      TD-AR-03-004




Evaluation of            Our monetary findings were based on reported Postal
Management’s             Service performance data, error rates identified in official
Comments                 Postal Service documents, and cost factors published by the
                         Postal Rate Commission. In addition, we considered and
                         addressed, in detail, all alleged “inaccuracies” raised in
                         management’s response to our draft report—and we
                         identified no issues raised by management that could impact
                         our monetary findings. Consequently, we consider our
                         findings valid.

Overall Evaluation of    In general, Postal Service Headquarters’ formal response to
Management’s             our draft audit report challenged many aspects of our work.
Comment                  However, throughout our audit we routinely met with senior
                         managers and officials to update them on our progress and
                         preliminary indications. During those meetings, we routinely
                         sought input and differing perspectives, and we considered
                         that input in our continuing effort. The results we presented
                         in our draft report were consistent with information we
                         continually exchanged with management throughout our
                         audit. Consequently we were surprised and disappointed by
                         the tone of management’s formal response. After we issued
                         our draft report, we offered, on various occasions, to meet
                         with headquarters officials to discuss any issues they had.
                         We explained that draft reports provided an opportunity for
                         management to comment formally, but that reports could
                         also be modified on the basis of informal dialog about minor
                         discrepancies. We further explained that such cooperative
                         dialog helped unburden the formal process. In reply to our
                         offers, management indicated they disagreed with our work
                         in certain respects; but were unable to meet and declined to
                         discuss specifics. They stated that they preferred to get
                         their objections on the record. We found management’s
                         position unfortunate. We normally find issues like draft
                         language in introductory background paragraphs easily
                         resolved. Consequently, we think management missed an
                         opportunity to engage with us, and as a result,
                         misinterpreted, misquoted, or mischaracterized draft
                         language—and as a result, unnecessarily burdened the
                         formal response process. Nonetheless, despite the tone of
                         their formal response, and frequently stated disagreement,
                         management agreed in substance with all of our
                         recommendations.




                                            15
                                  Restricted Information
Address Change Service                                TD-AR-03-004



                   APPENDIX. MANAGEMENT’S COMMENTS




                                       16
                             Restricted Information
Address Change Service                            TD-AR-03-004




                                   17
                         Restricted Information
Address Change Service                            TD-AR-03-004




                                   18
                         Restricted Information
Address Change Service                            TD-AR-03-004




                                   19
                         Restricted Information
